Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




             SAMHSA’s 

       Treatment Improvement 

              Protocols 





                   JUNE GIBBS BROWN
                    Inspector General

                       MARCH 1998
                      OEI-07-96-00130
                         OFFICE OF INSPECTOR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them


                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

The OEI’s Kansas City Regional Office prepared this report under the direction of James H.
Wolf, Regional Inspector General. Principal OEI staff included:


REGION                                                HEADQUARTERS

Ray Balandron, Project Leader                         Al Levine, Program Specialist
Perry Seaton, Program Analyst                         Mark Krushat, Director,
Deborah Walden, Program Analyst                         Research and Special Projects
Dennis Tharp, Program Analyst
Janet Miller, Program Analyst



To obtain copies of this report, please call the Kansas City Regional Office at (8 16) 426-3697.
Reports are also available on the World Wide Web at our home page address:
http://www.dhhs.gov/progorg/oei
                      EXECUTIVE                       SUMMARY

PURPOSE

To determine the extent of dissemination, and practitioner’s awareness and use of certain
protocols for the treatment of individuals with alcohol and other drug abuse problems.

BACKGROUND

Treatment Improvement       Protocols

Treatment     Improvement Protocols (TIPS) are consensus-based “best practice” guidelines
developed     for the Substance Abuse and Mental Health Services Administration (SAMHSA) for
use in the   treatment of individuals with alcohol and other drug problems. Since 1993, 23 TIPS
have been     developed and issued at an estimated average cost of approximately $300,000 each.

Dissemination     of TIPS

After each publication, SAMHSA disseminates a small number of TIPS to all State Alcohol and
Substance Abuse Directors, to Addiction Technology Transfer Centers, to special/demonstration
funded grantees that exist, and to individuals within the Department of Health and Human
Services. It also provides some at conferences and has made some available on the Internet.
However, the vast majority are made available through the National Clearinghouse for Alcohol
and Drug Information (NCADI). SAMHSA provides the bulk of its inventory to the
clearinghouse which provides them to others by request only.

Generally speaking, SAMHSA does not undertake any proactive advertising campaign covering
availability of the TIPS. Except for the inclusion in the NCADI catalog and order form, they are
not advertised in SAMHSA newsletters, professional publications/brochures,    national/state
medical associations’ publications/journals,  etc.

Methodology

Our study focused on five specific TIPS selected based on discussions and concurrence with
SAMHSA policy and executive staff. These five covered topics were methadone treatment,
pregnant substance-using women, alcohol and other drug abusing adolescents, screening for
infectious diseases among abusers, and assessing and treating patients with coexisting mental
illness and alcohol and other drug abuse.

To determine the extent of dissemination, we chose to survey a random sample of 770 health care
providers representing a broad range of provider types. Our goal was to get an extended view of
the knowledge, use of, and interest in TIPS. In addition, we wanted to provide SAMHSA with
baseline information by which the agency could measure the extent or success of future
dissemination efforts. We identified four provider groups to survey: (1) SAMHSA funded
grantee service providers, the “target audience” for which TIPS are developed;


                                                  i
(2) narcotic/methadone    treatment providers which administer methadone maintenance treatment
and must be registered with the Food and Drug Administration (FDA); (3) treatment providers at
Community Mental Health Centers (CMHCs) which, besides being Federally funded, offer a
broad range of services including substance abuse counseling and treatment; and (4) physicians
(hereinafter referred to as “customary providers”) which billed the Civilian Health and Medical
Program of the Uniformed Services (CHAMPUS) for alcohol and other drug abuse problems.
This latter group of physicians serve a universal broad population over and above Medicare,
including children, adults, and adolescents as well as elderly. Our sample sizes were based on
certain factors which included the expected proportion of providers who would know about TIPS,
a precision factor and confidence interval, the effective populations of each group, and an
expected response rate.

FINDINGS

Thirty-two percent of the SAMHSA funded grantees reported they were aware of at least one
of the five TIPS referenced in the survey.

Of the 137 SAMHSA funded grantees responding to the survey, 44 reported they were familiar 

with at least 1 of the 5 TIPS. Since SAMHSA considers these grantees their “target audience,” it 

was expected that this group would exhibit a much greater awareness of the protocols. 

Eighty-two percent of the grantees aware of TIPS indicated they were also using them in their 

practice. Of the 93 SAMHSA funded grantees that were not aware of TIPS, 74 percent reported 

that on becoming aware of them they believe they could be useful in their practice. Generally, 

the positions held by the respondents were of six types. These included 97 Program Directors, 

12 Program Coordinators, 10 Counselor/Registered     Nurses, 4 Administrative Directors, 

3 President/Vice President/Owners, 2 Team Leader/Interns, and 9 who did not provide their 

position. 


Eighty-six percent of the FDA narcotic/methadone treatment providers responded that they
were aware of at least one of the five TIPS referenced in the survey.

Sixty of the 70 FDA narcotic/methadone       treatment providers responding to the survey reported 

that they were aware of at least 1 of the 5 TIPS. The broad familiarity was with the single 

protocol covering methadone treatment. Such a high level of awareness may well be due to the 

fact that these providers administer strictly methadone treatment. Also, 52 of the 60 (87 percent) 

indicated they were using this protocol in their practice. The ten providers not aware of any TIPS 

reported that on becoming aware of them they believe they could be useful in their practice. 


Thirty-two percent of Community Mental Health Centers reported they were aware of at least
one of the five TIPS referenced in the survey.

Of the 125 CMHCs responding to the survey, 40 reported they were aware of at least 1 of the
5 TIPS as well as others in general. Thirty-six (90 percent) of them responded that they were also
using them in their practice. Eight-one percent (69) of the 85 centers that were not aware of TIPS
indicated that on becoming aware of them they believe they could be useful in their practice.



                                                 ii
This high percentage of potential interest in TIPS by CMHCs shows that there are alcohol and
other drug abuse treatment providers outside SAMHSA’s “target audience” that, if aware, would
make use of them

Four percent of the “customary provider” group responded that they were aware of at least
one of the five TIPS referenced in the survey.

Only 6 of the 142 “customary provider” group responding to the survey reported that they were
aware of at least 1 of the 5 protocols as well as TIPS in general. Since these physicians serve a
general broad population and provide a wide range of health care services, it was not surprising
that they would be generally unaware of them Of the 6 aware of TIPS, 2 indicated that they were
using them as part of their practice. Of the 136 “customary providers” unaware of TIPS, 44
(32 percent) expressed an interest in TIPS after learning of them

RECOMMENDATIONS

SAMHSA should take a more proactive approach to advertising the availability          of all past and
future TIPS.

Since less than half of the SAMHSA funded grantees that responded were aware of TIPS, this
indicates that greater effort needs to be made to raise their level of awareness of them However,
their usefulness is supported by our data which shows that 84 percent of all survey respondents
that were aware of any of the five TIPS were using them in their practice. While SAMHSA has
made positive strides in disseminating the protocols, such as putting some on the Internet,
distributing them at alcohol and other drug abuse conferences/seminars,     and providing them to
all State Alcohol and Substance Abuse Directors, there are additional awareness mechanisms that
could be considered. Examples are advertising TIPS in pertinent publications, brochures, and
professional journals, etc. They could also be noted in periodic newsletters/catalogs    published by
SAMHSA.

SAMHSA should consider expanding their “target audience.”

In the process of expanding efforts in advertising TIPS, SAMHSA should look beyond their
“target audience.” It should consider including at minimum CMHCs as they develop future TIPS
and advertise its current ones. Our survey results show that 81 percent of CMHCs that were
previously not aware of any of the 5 TIPS, now had an interest in using them in their practice.
This compares to 74 percent of SAMHSA funded grantees. Also, 32 percent of “customary
providers” reported now that they are aware of TIPS they believe the TIPS could be useful. We
believe this information infers that providers not commonly considered alcohol and other drug
abuse treatment providers do have an interest in them and their application within their practice.




                                                  ...
                                                  111
AGENCIES      COMMENTS         AND OIG RESPONSE

We received formal written comments from the SAMHSA Administrator and Assistant Secretary 

for Planning and Evaluation (ASPE) who agreed with our findings and recommendations. 

However, SAMH SA did raise several questions about our sampling methodology. 


In response to SAMHSA’s concern about our sampling technique, we note that our samples were 

scientifically drawn and at the sizes we selected, our precision is within six percent of each of the 

estimates. We have modified our report to include the confidence intervals for each of our main 

point estimates. 


SAMHSA also raised a concern about including treatment programs in our population that were 

never targeted as the primary audience for the TIPS. The comments refer to a list of providers 

provided by SAMHSA’s Office of Applied Studies. It was this office that had recommended that 

we use this list as it represented the “target population” for dissemination of TIPS. Nevertheless, 

the concern raised seemed important enough to review. We followed up on this by re-examining 

respondents information provided in our survey. Out of 137 respondents, all but 12 appeared to 

be potential users of the TIPS. The 12 possible exceptions identified themselves as prevention 

rather than treatment programs. In fact, we called six of these prevention respondents and three 

indicated an interest in TIPS. Overall, we believe the list was an appropriate one to have used for 

our analysis. 


We recognize that the agency is undertaking its own evaluation and, towards that effort, we hope 

that our results will be helpful in planning and implementation. However, we believe that our 

recommendations of wider advertising and expansion of the target audience could be 

implemented before the larger study is completed. 


We have attached actual comments from SAMHSA and ASPE in Appendix B. 





                                                  iv
                        TABLE                          OF             CONTENTS

                                                                                                                                   PAGE 

EXECUTIVE      SUMMARY

INTRODUCTION            .......................................................... 1

FINDINGS    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6

  SAMHSAfundedgrantees                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6

  FDA narcotic/methadone            treatment providers                  ....................................6

  Community    Mental Health Centers                  ............................................                                            6

  CHAMPUS       “customary providers”                 ...........................................                                        .7

RECOMMENDATIONS                    ....................................................                                                       8

AGENCIES      COMMENTS              AND OIG RESPONSE                                ..............................                           10

APPENDICES

  NonrespondentAnalysis..              ..............................................                                              ..A- 1

  Agencies Comments          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B- 1
                              INTRODUCTION

PURPOSE

To determine the extent of dissemination, and practitioner’s awareness and use of certain
protocols for the treatment of individuals with alcohol and other drug problems.

BACKGROUND

Treatment Improvement      Protocols

Treatment Improvement Protocols (TIPS) are consensus-based “best practice” guidelines
developed by the Quality Assurance and Evaluation Branch of the Substance Abuse and Mental
Health Services Administration’s (SAMHSA) Center for Substance Abuse Treatment (CSAT).
They are developed to promote the transfer of state-of-the-art protocols and guidelines for the
treatment of alcohol and other drug abuse from acknowledged clinical, research, and
administrative experts to the Nation’s alcohol and other drug abuse treatment resources.

The process begins with the recommendation of an alcohol and other drug abuse problem topic
for consideration by a panel of experts including clinicians, researchers, and program managers,
as well as professionals in such related fields as social services or criminal justice. Following the
selection of a topic, CSAT forms a Federal resource panel to review the state-of-the-art in
treatment and program management. Recommendations from this panel are then transferred to a
second panel consisting of non-Federal experts who are very familiar with the topic. This group,
known as a non-Federal consensus panel makes recommendations,           defines protocols, and arrives
at agreement on protocols. Its members represent alcohol and other drug abuse treatment
programs, hospitals, community health centers, counseling programs, criminal justice and child
welfare agencies, and private practitioners. The panel chairperson is charged with the
responsibility for ensuring the resulting protocol reflects true group consensus.

Next, an evaluation of the proposed guidelines and protocol must be made by a third group
whose members serve as expert field reviewers. Following review of their recommendations and
responses, the document is approved for publication. The published TIP reflects alcohol and
other drug abuse treatment guidelines to be used for provision of high quality and innovative
treatment in public and private programs.

Since 1993,23 TIPS have been developed and issued. SAMHSA estimates the average cost for
developing each TIP to be approximately $300,000, not including printing costs. This study
focused on five specific TIPS. The five TIPS were selected based on discussions and concurrence
with SAMHSA policy and executive staff. The five TIPS and year of publication are listed in the
following table.




                                                   1

                             FIVE TIPS REFERENCED           IN SURVEY 




      1         State Methadone   Treatment   Guidelines                                   1993         II

     2          Pregnant, Substance-Using     Women                                        1993

     4          Guidelines for the Treatment of Alcohol and Other Drug Abusing             1993
                Adolescents

     6          Screening for Infectious Diseases Among Substance Abusers                  1993

     9          Assessment and Treatment of Patients with Coexisting Mental                1994
                Illness and Alcohol and Other Drug Abuse



Besides being some of the earliest TIPS published, it is believed that these particular protocols
cover a wide range of treatment types as well as provider types and should have a better chance
of being known by alcohol and other drug treatment providers.

Dissemination     of TIPS

After each publication, SAMHSA disseminates approximately 300 TIPS to a number of
individuals or components within the Department of Health of Health and Human Services, all
State Alcohol and Substance Abuse Directors, the Addiction Technology Transfer Centers, and
to any special or demonstration funded grantees that exist. There is no direct mailing of TIPS to
the approximate 13,000 SAMHSA block grant/State funded grantees. The SAMHSA also
provides TIPS at conferences and seminars and has made several of the TIPS available on the
Internet. In the future it is their intent to have all of them on the Internet. All remaining
inventory of TIPS is forwarded to the National Clearinghouse for Alcohol and Drug Information
(NCADI) which is responsible for all other distribution of the protocols, though done by request
only. The NCADI does include TIPS in it’s inventory catalog and in their brochure/order form
which are also available upon request. The SAMHSA pays approximately one million dollars
per year to the clearinghouse for this effort.

The SAMHSA does not undertake any proactive advertising campaign covering availability of
the TIPS. Except for the inclusion in the NCADI catalog and it’s order folm, TIPS are not
referenced in periodic SAMHSA newsletters, professional publication/brochures,         national/state
medical associations’ publications/journals,  etc. At the time this study was initiated, there was an
ample supply of the five protocols included in our study as well as the other TIPS. For the
specific five protocols focused on in this study, inventory as of October 1997 ranged from TIP #l
with 13,000 copies to TIP #4 with 55,500 copies. The table below shows the quantity printed
and the inventory available in October 1997 for each TIP in the study.




                                                      2

                                         TIPS INVENTORY 


   TIP #               Quantity Printed                      No. Available in October 1997

  TIP # 1                    51,095                                       13,000

  TIP # 2                    99,852                                       41,208

  TIP # 4                   101,170                                       55,500

  TIP # 6                    99,816                                       5 1,405

  TIP # 9                    98,806                                       32,150



THE OBJECTIVES          OF THIS REPORT 


The purpose of this report is to provide SAMHSA with a better understanding of the extent to
which TIPS are actually disseminated throughout the alcohol and other drug abuse treatment
health care community and other providers by determinin g the level of awareness of these
protocols among the provider population. In addition, we want to advise SAMHSA to what
extent the TIPS are being incorporated into providers’ practices. We have not evaluated the
effectiveness of the guidelines used by any of the providers or distinguished the strengths and
weaknesses of the individual TIPS.

Another objective of this report is to identify the potential for providers’ interest after being made
aware of them through this study. Additionally, we are identifying information by which
SAMHSA can measure or evaluate the necessity for the expansion of future activities through
expanded dissemination and advertising their availability.

METHODOLOGY

To determine the extent of dissemination and SAMHSA’s advertising techniques, we chose to
survey a broad sample of health care providers to get an extended view of the knowledge, use of,
and interest in TIPS for treatment of alcohol and other drug abuse problems. We identified four
provider groups to survey: (1) SAMHSA funded grantee service providers, the “target audience”
for which TIPS are developed; (2) narcotic/methadone     treatment providers which administer
methadone maintenance treatment and must be registered with the Food and Drug
Administration (FDA); (3) treatment providers at Community Mental Health Centers (CMHCs)
which offer a broad range of services including substance abuse counseling and treatment; and
(4) physicians, hereinafter referred to as “customary providers,” which had billed the Civilian
Health and Medical Program of the Uniformed Services (CHAMPUS) for alcohol and other drug
abuse problems. These “customary providers” serve a universal broad population over and above
Medicare, including children, adults, and adolescents as well as elderly.




                                                  3

Some providers were of a specialty that would unquestionably treat alcohol and other drug abuse
problems whereas others were of an unrelated specialty but received some payment for treating
these type problems. Therefore, the extent to which these four provider types treated alcohol and
other drug abuse problems could vary substantially. We believe that these four provider types
ensured we had the broadest possible representative sample groups of alcohol and other drug
abuse service providers.

The SAMHSA funded grantee listing, which numbered 13,394, was provided to us by
SAMHSA’s Office of Applied Studies. Since this group of alcohol and other drug abuse
treatment providers is SAMHSA’s “target audience” when developing TIPS, SAMHSA strongly
suggested that they be included in our study. We randomly sampled 198 of these providers.

The FDA narcotic treatment providers which administer strictly methadone maintenance
treatment must register with the FDA. Additionally, because of the specificity of the treatment
provided by this group, they were also suggested by SAMHSA to be included in our study.
While these narcotic treatment providers are not specifically a subset of the SAMHSA funded
grantees, there is a substantial amount of overlap of these groups. Of the 70 FDA narcotic
treatment providers responding to the survey, 58 (74 percent) were also included in the
SAMHSA funded grantees total listing. Our universe of FDA narcotic treatment providers
numbered 862 and we randomly sampled 110 of them

Community Mental Health Centers were selected because of their Federal funding and broad
range of services, including individual and group counseling, psycho social rehabilitation,
therapeutic education, life skills training, day programs, and substance abuse counseling and
treatment. Our universe included 549 CMHC’s, of which we randomly sampled 163. We were
particularly interested in CMHCs’ possible awareness of and interest in TIPS.

Our fourth group, which included a listing of 8,486 “customary providers” from CHAMPUS was
selected to determine if they were being overlooked as health care providers having a possible
interest in TIPS. According to CHAMPUS, these physicians had submitted at least one claim for
diagnostic codes related to alcohol and other drug abuse treatment. We randomly sampled
299 physicians from this “customary provider” group.

Each of these 770 health care providers was mailed an individual survey. Overall, 62 percent of
our sample responded to the survey. We were unable to perform a nonrespondent analysis for the
CMHC, FDA, or “customary provider” groups. We did, however, perform a nonrespondent
analysis for the SAMHSA funded grantee provider group and concluded that there is minimal
effect due to the nonresponders (see appendix A for details on our analysis). The number of
surveys mailed to each provider type and the number of responses received is shown in the
following table.




                                                 4

                               Number of TIPS Surveys Mailed
                                  and Responses Received
                                     by Provider Type

    Provider Type             No. Mailed             No. Responded             Percentage

       SAMHSA                      198                     137                     69%

         FDA                       110                      70                     64%

        CMHC                       163                     125                     77%



         Total                    770                      474                     62%



Our sample sizes were based on certain factors which included the expected proportion of
providers who would know about TIPS, a precision factor and confidence interval, the effective
populations of each provider type, and an expected response rate of sixty percent. Our survey
document included both closed- and open-ended questions which were primarily specific to the
five protocols selected for the study. A follow-up survey was mailed to each provider not
responding to our initial mailing.

We conducted our review in accordance with the Quality Standards for Inspections    issued by
the President’s Council on Integrity and Efficiency.




                                                5

                                     FINDINGS 


Thirty-two percent of the SAMHSA funded grantees reported they were aware of at least one
of the five TIPS referenced in the survey.

Of the 137 SAMHSA grantees responding to the survey, 44 reported they were familiar with at
least 1 of the 5 TIPS referenced in the survey. At the 90 percent confidence interval, this
produced an actual value estimated to lie between 25 and 39 percent. This is increased to
36 percent if we include those that reported they were aware of them in general. Since SAMHSA
considers these grantees as their “target audience,” it was expected that this group of providers
would exhibit a much greater awareness of the protocols. Eighty-two percent of the grantees
aware of TIPS reported they were also using them in their practice. Of the 93 SAMHSA grantee
respondents that were not aware of any TIPS, 74 percent reported that on becoming aware of
them through our survey, they believe they could be useful in their practice. Generally, the
positions held by the respondents were of six types. These included 97 Program Directors,
12 Program Coordinators, 10 Counselors/Registered       Nurses, 4 Administrative Directors,
3 President/Vice President/Owners, 2 Team Leader/Interns, and 9 who did not provide their
position.

Eighty-six percent of the FDA narcotic/methadone treatment providers responded that they
were aware of at least one of the five TIPS referenced in the survey.

Sixty of the 70 FDA narcotic/methadone     treatment providers responding to the survey reported
that they were aware of at least 1 of the 5 TIPS referenced in the survey, with familiarity being
specifically with protocol #1 which covers methadone treatment guidelines. At the 90 percent
confidence interval, the actual value was estimated to lie between 78 and 93 percent. We believe
that this high level of awareness of TIPS may well be due to the fact that these narcotic providers
specifically administer methadone treatment and would therefore be aware of the TIP covering
this topic.

Fifty-two of the 60 (87 percent) FDA narcotic/methadone      treatment providers aware of TIP # I
indicated that they were using it in their practice. Although not specifically included in the
SAMHSA “target audience,” both groups are using TIPS at similar levels.

The 10 FDA narcotic/methadone  treatment providers not aware of TIPS reported that on
becoming aware of them through the survey, they believe they could be useful in their practice.

Thirty-two percent of community mental health centers reported they were aware of at least
one of the five TZPs referenced in the survey.

Of the 125 CMHCs responding to the survey, 40 reported that they were aware of at least 1 of the 

5 TIPS referenced in the survey as well as other TIPS in general. At the 90 percent confidence 

interval for this sample, the actual value was estimated to lie between 26 and 38 percent. Of the 

40 respondents aware of the 5 TIPS, 36 (90 percent) were using them in their practice. 

Eighty-one percent of the 85 CMHCs that reported they were not aware of TIPS indicated that on 



                                                  6
becoming aware of them through the survey, they believe TIPS could be useful in their practice.
This high percentage of interest in these protocols by CMHCs shows that there are alcohol and
other drug abuse treatment providers outside SAMHSA’s “target audience” that would use them
if they were aware of them

Four percent of the “customary provider” group responded that they were aware of at least
one of the five TIPS referenced in the survey.

Six of the 142 “customary provider” group responding to the survey reported that they were
aware of at least 1 of the 5 protocols referenced in the survey as well as TIPS in general. At the
90 percent confidence interval, the actual value was estimated to lie between 1 and 7 percent.
Since these physicians serve a general broad population and provide a broad range of health care
services, it was expected that they would be generally unaware of them Of the 6 “customary
providers” aware of TIPS, 2 (33 percent) indicated that they were using them as part of their
practice. Also, of the 136 “customary providers” reporting they were unaware of TIPS,
44 (32 percent) expressed an interest in TIPS after learning of them




                                                 7

                      RECOMMENDATIONS

We conclude from survey results that there is a need to raise the level of awareness of TIPS
throughout the alcohol and other drug abuse treatment health care community. Our data shows a
potential use of them by other than the SAMHSA funded grantees and a substantial interest in
TIPS by the various provider types once they become aware of them In addition, our survey has
provided baseline information by which SAMHSA can measure the extent or success of future
dissemination efforts. Overall, we would conclude that the ample inventory of TIPS which
currently exists permits SAMHSA the potential to look at various alternatives to enhance
awareness of providers who serve the alcohol and other drug abuse patient.

SAMHSA should take a more proactive approach to advertising all past and future TIPS.

SAMHSA should take a more proactive approach to making all possible alcohol and other drug 

abuse treatment providers aware of TIPS. Since less than half of the SAMHSA targeted provider 

group were aware of them this indicates that greater effort needs to be made to raise their 

awareness level. This is also supported by our data showing that 84 percent of all survey 

respondents that were aware of any of the five TIPS were also using them in their practice. 


It is understood that direct mailings to all possible alcohol and other drug abuse treatment 

providers is not feasible simply because demand would be greater than supply. However, 

inventories are certainly large enough to send them to all SAMHSA grantee service providers, its 

principal “target audience.” Furthermore, with a proactive information campaign many of those 

unaware of TIPS could learn about them and where applicable to their practice, could request 

them Some respondents unaware of TIPS indicated that our survey served as a good mechanism 

to make them aware of the protocols. Suggestions made by respondents included advertising 

TIPS through pertinent publications, brochures, professional journals, etc. TIPS could be 

referenced in periodic newsletters and/or catalogs published by SAMHSA. It could also advise 

the various pertinent national/state medical associations for their notification to members. Such 

an expanded communication network should build upon SAMHSA’s efforts to produce a 

valuable treatment tool and should raise providers’ awareness of the treatment protocols. 


SAMHSA should also continue to expand its efforts in such areas as putting TIPS on the Internet 

and distributing them at National and Regional alcohol and other drug abuse 

conferences/seminars. 


SAMHSA should consider expanding their “target audience. )’

In the process of expanded efforts in advertising TIPS, SAMHSA should look beyond their
“target audience.” It should consider including at minimum CMHCs as they develop future TIPS
and advertise its current ones. Our survey results show that 81 percent of CMHCs that were
previously not aware of any of the 5 TIPS, now had an interest in using them in their practice.




                                                 8

This compares to 74 percent of SAMHSA funded grantees. Also, 32 percent of the “customary
physicians” reported now that they are aware of TIPS they believe they could be useful. We
believe the data clearly supports that other health care providers not commonly considered
alcohol and other drug abuse treatment providers do have an interest in them and their
application within their practice.




                                              9

        AGENCIES              COMMENTS AND OIG RESPONSE

We received formal written comments from the SAMHSA Administrator and Assistant Secretary
for Planning and Evaluation (ASPE) who agreed with our findings and recommendations.
However, SAh4HSA did raise several questions about our sampling methodology.

OZG Response to SAMHSA Comments

In response to SAMHSA’s concern about our sampling technique, we note that our samples were
scientifically drawn and at the sizes we selected, our precision is within six percent of each of the
estimates. We have modified our report to include the confidence intervals for each of our main
point estimates.

SAMHSA also raised a concern about including treatment programs in our population that were
never targeted as the primary audience for the TIPS. The comments refer to a list of providers
provided by SAMHSA’s Office of Applied Studies. It was this office that had recommended that
we use this list as it represented the “target population” for dissemination of TIPS. Nevertheless,
the concern raised seemed important enough to review. We followed up on this by re-examining
respondents’ information provided in our survey. Out of 137 respondents, all but 12 appeared to
be potential users of TIPS. The 12 possible exceptions identified themselves as prevention rather
than treatment programs. In fact, we called six of these prevention respondents and three
indicated an interest in TIPS. Overall, we believe the list was an appropriate one to have used for
our analysis.

We recognize that the agency is undertaking its own evaluation and, towards that effort, we hope
that our results will help in planning and implementation. However, notwithstanding the agency
evaluation, we believe that our specific recommendations of wider advertising and expansion of
the target audience could be implemented before the larger study is completed.

We have attached actual comments from SAh4HSA and ASPE in Appendix B.




                                                  10 

                                    APPENDIX                     A

                                  NONRESPONDENT             ANALYSIS

We conducted an analysis to determine if the survey’s nonrespondents are different from the
respondents. If the nonrespondents are significantly different, bias may be introduced into the
results. We used data file information on the 198 facilities included in the SAMHSA funded
grantee sample group. We analyzed the facilities with respect to their number of active clients,
whether they provide substance abuse treatment, and whether they provide methadone to their
clients, all as of October 1, 1995. These are all categorical variables and were tested using the
&i-square test statistic.

We found the results are not biased with respect to the size of the facility or whether the facility
provides substance abuse treatment. The &i-square test statistic was not significant in the
analysis of these two variables.

The methadone facilities are under represented being only approximately 5 percent of the total
surveys and 10 percent of the nonrespondents.   This difference is statistically significant.
However, we believe that this difference does not materially affect our conclusions.

The following tables demonstrate the results of our analysis. Included in the tables are the
number of respondents and nonrespondents that fall within each of the variable categories. The
&i-squared test statistic and the associated degrees of freedom are noted on each table.


                                            SIZE OF FACILITY


ISize of Facility

 0 - 18 Active Clients
                                 Respondents

                                        30          27%
                                                        %     Nonrespondents

                                                                     10
                                                                                    %

                                                                                  19%
                                                                                             Total

                                                                                               40

 19 - 39 Active Clients                 28          25%              13           25%          41

 40 - 108 Active Clients                31          27%              12           22%          43

 109 - 109+ Active Clients              24          21%              18           34%          42

 Total                                 113         100%              53           100%        166

         (Xi-squared test statistic=3.512
         Degrees of freedom=3
         p-value=0.3 19




                                                  A-l
                           SUBSTANCE       ABUSE TREATMENT

  Facility Provides
  Substance Abuse            Respondents       %     Nonrespondents    %       Total


          Yes 


            No                      22         16%           9         14%       31 


         Tntnl                     l?h        inn%          62        1I)l)%    198 



    Chi-squared test statistic=0.089 

    Degrees of freedom= 1 

    p-value=0.766 



                               METHADONE       TREATMENT

  Facility Provides
Methadone Treatment          Respondents       %     Nonrespondents    %       Total

          Yes                        4          3%           6         10%       10 


            No

     Don’t know 


   Non-treatment                    21         16%           5          8%       26 


        Tntfll                     134       100%          62         100%      196 


    (X-squared test statistic=16.560 

    Degrees of freedom=3 

    p-value<O.OO 1 





                                            A-2 

  APPENDIX     B


AGENCIES COMMENTS 





        B-l
B-2 

B-3 

     DEPARTMENT     OF HXAL,TH   A r$UtlAN   .WWKXS                               Public Health   SWVIC~




                                                                                  Substance Abuse and Mental
                                             JAN    I    3 I998                     Hsakh Sewicm Administration
                                                                                  Rockville MD 20857

To: 	          June Gibbs 3rown
               Inspector General

From:          Administrator, SAMHSA

Subject:       ~~,~7~$rt~~A’s                      Treatment Improvement Protocols”

Thank you for t@eopportunity    

                            to comment     on the subject drafl repo.rt. The SubstanceAbuse and
Mental Health Services Administration (SAMHSA), through its Cenkr for Substance Abuse 

Treatment(CSA‘I’),is proudof its ruIe in the dcvcIapment of the Rcatment Improvement 

Protocols ms) that have, oyer the last five-years, produced 24 consens~b~         doments 

relakd to improvingpublkly-fbndedsubstanceabuse treatment services and systems.

With regard to the report developed by the Office of the ‘Spector GenemI (OIG),SAMHSA
expressed its concerns pi& to the study, and reiterates again, that the primary sanlple of tided
grantees drawn to determinethe impactand usefihxss of the TIPS was extrao~y              small
(198of 13,349prhidcra), withmanyof theSBLY#A            programsconsistingof alcohol-only,
prevention-only,  ormistxllaneous potential ;rec@ients (e.g., Boy’s Clubs/Gjri’s Clubs, a
penitentiary, a medical school, a research institute, and a church group) which were IXYQ
targeted as the primary audience for tliese treatmentkiented protocols. The result was a lower
than anticipakd positive response (32 percent) to the TIPS. Converdy, where CSAT
specifically directed a TIP on methadone setices to national narcotic treatment programs, over
86 percent of responding units were aware of this protocol.

Overall, SkWiSA accepts the conclusions and recommendations of the OIGreport. In fact,
even prior to the beginning of the study, CSAT had committed its&. to conductkig, and has
subsequently tiplemented, a 4-year, $32 million study to improve the development and
dissemination of the ‘llPs. This study will be conducted with attention to appropriate axed
rigoroussampling, both quantitative and qualitative, with the intention of improving the
viability, dissemination, and use of these important guidelines and materials. Central to this
studywillbethe effortto improvethetazgetingof the TIPStQspcciaIizcdpcrpulatioas
                                                                             NIB!!x
expansion of the target audier~ces,as recommended by the OIG report.

Thank you again for the opportunity to comment.         We look forward to receiving your final
report.




                                                         Nelba Chqvez, Ph.D.




                                                    B-2 

         DEPARTMENT      OF HEALTH    & HUMAN      SERVICES                          otfrce of the secrsrary


                                                                                     Was5inglOn,   D.C. 20201




 TO: 	           June Gibbs Brown
                 Inspector General, DHHS

 FROM: 	         CheqI Austein7?@fG
                 Division Director
                 Public He&h Policy, ASPE

 DATE:          Febrq     6,1998

 SUBJECT: 	     Clearax: of OIG DrafI Report “SAMHSA’s          Treatmcxt Improvenient Protocols”
                (OEI-O7-96-00130)


 Thank you for the opporznity to review a draft version of the report evaluating S&HSA’s
 Treatment Improvement Protocol (TIP) series. A mcmbcr of my staff familiar with SMSA
 programs has exzmined the report and concurs with its publication, In ,oencraI, rnv s+kzf!f found
the methodoIogicaI and sampling approach reasonable, if not e&rely representative, The
report’s conclusions and recommendations appear justified and b&d firmIy upon the study
fmdings. Moreover, my staff is aware that SAMHSA accepts the report’s conclusions and
rewmmcndations, and & currently implemem?ing a more extensive study of the TLFseries in an
attempt to improve tic viability, dissemination, and use of these guidelines. it is likely that the
recommendations or”the report Tom your of&e wiIl provide important inform&n to
SAMHSA’s cumnt evaluation eEo& in this area




                                                       B-3 

